    March 21, 2003




Information System Security
Controls Over the Use and Protection
of Social Security Numbers Within
DoD
(D-2003-066)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAFES                 Army and Air Force Exchange Service
DMDC                  Defense Manpower Data Center
DSS                   Defense Security Service
FAR                   Federal Acquisition Regulation
GAO                   General Accounting Office
SSN                   Social Security Number
          Office of the Inspector General of the Department of Defense
Report No. D-2003-066                                                   March 21, 2003
   (Project No. D2002AB-0070)

          Controls Over the Use and Protection of Social Security
                          Numbers Within DoD

                                 Executive Summary

Who Should Read This Report and Why? Program administrators, developers,
managers, and users of systems of records, and all DoD personnel interested in how DoD
uses and protects Social Security Numbers.

Background. This report is in response to a request by the General Accounting Office
for member Inspectors General of the President’s Council on Integrity and Efficiency to
conduct a review on the use of Social Security Numbers within their agencies and to
verify the information reported on a General Accounting Office questionnaire. The four
DoD agencies that responded to the General Accounting Office questionnaire were the
Defense Manpower Data Center, the Army and Air Force Exchange Service, the Defense
Security Service, and the Tricare Management Activity.

While this report addresses the use of Social Security Numbers within DoD and verifies
information reported on a General Accounting Office questionnaire, other reviews by the
Office of the Inspector General, Department of Defense, focused on the adequacy of
controls over contracting including use of the Privacy Act clauses in contracts and the
disposal of personally identifiable information.

In 1967, DoD adopted the Social Security Number instead of the Military Service
Number for identifying Armed Forces personnel. The Social Security Number has
become the most widely used identifier in both public and private sectors.

The Privacy Act of 1974 (Public Law 93-579) states the right to privacy is a personal and
fundamental right protected by the Constitution of the United States. The Privacy Act
states that the privacy of an individual is directly affected by the collection, maintenance,
use, and dissemination of personal information by Federal agencies.

Social Security Numbers are used for employee files, medical records, health insurance
accounts, credit and banking accounts, university identification cards, and many other
purposes, and we believe that there is a higher risk of misuse and potential for identity
theft resulting in monetary losses to individuals and businesses.

Results. We reviewed three of the four DoD agencies that responded to the General
Accounting Office questionnaire. Those three agencies made disclosures of personally
identifiable information for legal purposes; however, their Privacy Programs needed
improvements in policy administration, oversight, periodic reviews, physical security,
and training.
After we notified officials at the DoD agencies of our findings, they concurred and took
or agreed to take the necessary remedial actions to mitigate the risk of improper
disclosure of Social Security Numbers. Those actions will help the agencies improve
appropriate controls over contractors’ and other entities’ access to and use of the Social
Security Numbers maintained in their databases.

Management Comments. We provided a draft of this report to those DoD agencies on
November 12, 2002. Written responses to this report were obtained before we issued the
draft report. Those comments are included in the Management Comments section.

While we made no recommendations because the three DoD organizations agreed to take
appropriate corrective actions, we ask that the Defense Manpower Data Center, the Army
and Air Force Exchange Service, and the Defense Security Service provide planned or
completed dates for agreed-upon actions. The specific agreed-upon corrective actions are
included on page 10 of the report.




                                             ii
Table of Contents
Executive Summary                                            i

Background                                                   1

Objectives                                                   3

Finding
     Use and Protection of Social Security Numbers in DoD    4

Appendixes
     A. Scope and Methodology
          Prior Coverage                                    11
     B. Report Distribution                                 12

Management Comments
     Defense Manpower Data Center Comments                  14
     Army and Air Force Exchange Service Comments           16
     Defense Security Service Comments                      17
Background
    Social Security Numbers. The Social Security Number (SSN) was created in
    1936 to track workers’ earnings for calculating Social Security retirement
    benefits. When SSNs were first introduced, the Federal Government assured the
    public that use of the numbers would be limited to Social Security programs.
    However, the SSN has become the most widely used identifier in the public and
    private sectors. Because SSNs are used for employee files, medical records,
    health insurance accounts, credit and banking accounts, university identification
    cards, and many other purposes, there is potential for identity theft resulting in
    monetary losses to individuals and businesses. In 1967, DoD adopted the SSN
    instead of the Military Service Number for identifying Armed Forces personnel.

    Privacy Act of 1974. The Privacy Act of 1974 (Public Law 93-579) states the
    right to privacy is a personal and fundamental right protected by the Constitution
    of the United States. The Privacy Act states that the privacy of an individual is
    directly affected by the collection, maintenance, use, and dissemination of
    personal information by Federal agencies. The increasing use of computers and
    sophisticated information technology has increased the threat to individual
    privacy that can occur when collecting, maintaining, using, and disseminating
    personal information. The purpose of the Privacy Act is to provide certain
    safeguards for an individual against the invasion of privacy. One of the purposes
    of the Privacy Act is to permit individuals to determine which records pertaining
    to them are collected, maintained, or disseminated to other agencies. DoD Policy
    prohibits disclosure of personally identifiable records maintained by Government
    agencies without a person’s consent, and grants individuals the right to access and
    amend those records if they are not accurate, relevant, current, or complete.

    DoD Directive 5400.11,“DoD Privacy Program, ” December 13, 1999. The
    Directive states that personal information such as SSNs that identifies individuals
    shall be collected, maintained, used, and disclosed only when it is relevant and
    necessary to accomplish a lawful DoD purpose. When collected, the agency must
    inform the individual why the information is being collected, the authority for
    collection, whether the disclosure is mandatory or voluntary, and the
    consequences of not providing that information. The Directive permits
    individuals to determine to the extent authorized by the Privacy Act, which
    records pertaining to them are contained in a system of records maintained by a
    DoD Component. It permits an individual to gain access to such records that
    pertain to them, obtain a copy of the records, correct inaccurate information on a
    showing that the records are not accurate, relevant, current, and complete, and
    appeal a denial of access or a request for amendment to those records. The
    Directive defines a record as any collection of information about an individual
    that identifies, relates to, or is unique to an individual, such as a SSN. A group of
    records is called a system of records. Before a system of records is established
    and personally identifying information is obtained, a notice of the system of
    records must first be published in the Federal Register. Publication in the register
    constitutes official public notice. The Directive also states that once the
    information is collected, appropriate safeguards will be established to ensure the
    security of the records. Components must issue procedures, conduct periodic
    reviews, and train personnel on their Privacy Program.


                                          1
Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR)
Part 24, “ Protection of Privacy and Freedom of Information,” prescribes policies
and procedures that apply the requirements of the Privacy Act of 1974 to
Government contracts. The FAR requires contracting officers to insert Privacy
Act clauses 52.224-1 and 52.224-2 in contracts. When the design, development,
or operation of a system of records on individuals is required to accomplish an
agency function, the clauses require contractors to comply with the Privacy Act of
1974.

General Accounting Office Review. The House Ways and Means Committee,
Subcommittee on Social Security and the Senate Judiciary Committee,
Subcommittee on Technology, Terrorism, and Government Information requested
the General Accounting Office (GAO) to review the Government’s use of SSNs.
The review began in March 2001 and examined the Federal, State, and local
governments’ use of SSNs to administer programs, provide services to the public,
protect individuals’ privacy, and prevent identity theft. The review focused on
18 Federal agencies including DoD. GAO sent a questionnaire to the agencies on
their use and protection of SSNs. The GAO review formed the basis for the
President’s Council on Integrity and Efficiency’s request for member Inspectors
General to review the use of SSNs in their agencies, verify the information
provided to GAO and report the findings to the Social Security Administration,
Office of the Inspector General.

DoD Organizations Reviewed. The GAO sent the questionnaire to four DoD
agencies. We reviewed information for the Defense Manpower Data Center
(DMDC), the Army and Air Force Exchange Service (AAFES), and the Defense
Security Service (DSS).

        DMDC. The DMDC reports to the Under Secretary of Defense for
Personnel and Readiness. DMDC is the central repository of all DoD human
resource information. Its mission is to collect, provide, and use the central
repository of information for the benefit of DoD decision makers, DoD
organizations, and other Government agencies. In 2001, DMDC received and
archived more than 5,000 separate databases containing more than 1.25 billion
individual records.

        AAFES. The AAFES is a military organization that provides quality
retail merchandise and services at low prices to members of the Armed Forces,
military retirees, and their families. The AAFES returns its earnings to the Army
and Air Force to improve the quality of life for military families. Although
AAFES is a Federal organization, it is a nonappropiated fund instrumentality that
does not rely on appropriated tax dollars for major support. The AAFES operates
almost exclusively with funds generated from its business income.

        DSS. The DSS is a security organization providing personnel
investigations, industrial security products and services, and comprehensive
security training to DoD and other Government agencies. DSS investigative
agents conduct personnel security investigations of military personnel, DoD
civilians, Defense contractors, and other authorized personnel. DSS also provides
oversight and assistance to Defense contractors.



                                    2
Objectives
     The objective was to determine whether DoD agencies maintain appropriate
     controls over the access, disclosure, and use of SSN information by third parties.
     Specifically, we determined whether the selected DoD agencies made disclosures
     of SSNs to third parties for legal purposes, whether selected DoD agencies had
     appropriate controls over the contractors’ and other entities’ access and use of
     SSNs, and whether the selected agencies had adequate controls over access to
     individuals’ SSNs maintained in their databases. In addition, we verified the
     information on the questionnaires completed for the GAO. See Appendix A for a
     discussion of the scope and methodology and prior audit coverage.




                                          3
            Use and Protection of Social Security
            Numbers in DoD
            Although the three DoD agencies made disclosures of personally
            identifiable information for legal purposes to third parties, improvements
            in the Privacy Program were needed in contract administration, policy,
            periodic reviews, physical security, and training. Additional safeguards
            were required because:

                •   procedures were incomplete,

                •   oversight and administration of contracts was inadequate,

                •   periodic reviews of the Privacy Program were not conducted,

                •   physical security measures for information systems that store
                    social security numbers were poor, and;

                •   privacy act training was not provided.

            As a result, we believe the three DoD agencies had increased risk for SSN
            misuse and identity theft that could result in potential monetary loss to
            individuals and businesses. After the agencies were notified of the issues,
            they initiated corrective actions.

Disclosures of SSNs
     The three DoD agencies we reviewed made disclosures of personally identifiable
     information for legal purposes. DoD Directive 5400.11 states that personal
     information that identifies individuals shall be collected, maintained, used, and
     disclosed only when it is necessary to accomplish a lawful DoD purpose. The
     agency must inform the individual why the information is being collected and
     publish a notice for all systems of records.

     DMDC. The DMDC is the central repository of all DoD human resource
     information. We reviewed two systems that were the focus of the GAO review,
     including the Military Entrance Processing Command File and the High School
     Students Armed Services Vocational Aptitude Battery File. DMDC did not
     collect the data for both systems, but was the custodian of the information
     obtained. DMDC provided the information in those files to other DoD decision
     makers, DoD organizations, and other Government agencies. DMDC has
     memorandums of understanding with entities to whom they release information.
     All entities are required to release the information only to authorized officials. In
     addition, DMDC has 10 systems of records. We reviewed the largest system
     which provides a single central facility within DoD to assess manpower trends,
     support personnel and readiness functions, perform statistical analyses, assist in
     detecting fraud and abuse of pay and benefits and register former and current



                                           4
    DoD civilian and military personnel for the purpose of determining medical and
    other benefits. The notice for this system of records was published in the Federal
    Register.

    AAFES. Employees and customers of AAFES are adequately informed about the
    collection, disclosure, and use of their SSNs. Officials stated AAFES provides
    SSNs to Government agencies and AAFES contractors for employee and
    customer benefits and services including health coverage, retirement benefits,
    payroll taxes, check cashing privileges, and exchange credit cards. AAFES has
    27 official systems of records used to accomplish AAFES functions. We
    reviewed 23 of these systems. Notices for the systems of records were published
    in the Federal Register.

    DSS. DSS discloses information identifying individuals’ SSNs to non-
    Government and Government entities. When personal information is collected,
    individuals are informed of the intended use and disclosure. DSS discloses
    personal information to law enforcement offices, such as local and state police
    departments and credit bureaus. DSS maintains 15 official systems of records.
    We reviewed three of those systems because they were the focus of the DSS
    primary mission of security investigations. Those records were recorded in
    notices and published in the Federal Register. We also reviewed the process used
    by DSS to protect privacy data during the conduct of personnel security
    investigations. DSS has an accreditation process with its customers to ensure that
    personally identifiable information provided to others is properly identified,
    obtained, used, and disposed.

Procedures on the Privacy Program
    Of the three agencies reviewed, two did not have complete procedures to address
    the Privacy Program. DoD Directive 5400.11 requires that procedures be issued
    addressing the Privacy Program.

    DMDC. DMDC published the “Personnel Data Release and Acquisition Policy,”
    April 25, 2001, which addresses the release of Privacy Act information and
    provides legal accountability for all data released from DMDC that is individually
    identifiable. However, the policy did not define a process to release data to other
    DoD organizations, Government organizations, and others. Officials agreed to
    revise the policy to include the process to be followed when releasing personally
    identifiable data. The revised policy would ensure consistent practices on
    requests to obtain personally identifiable information such as SSNs and the
    release of the data. Because officials agreed to take action, we did not make a
    recommendation.

    AAFES. The AAFES established procedures to implement the DoD Privacy
    Program requirements. The AAFES Exchange Operating Procedures 11-1
    “AAFES Privacy Program,” dated July 16, 2001, provides adequate policies,
    procedures, a process, and guidance for its Privacy Program.

    DSS. DSS established procedures to implement the DoD Privacy Program
    requirements. DSS Regulation 01-13-R “Privacy Program,” dated


                                         5
    January 2, 2001, and DSS Regulation 20-12 “ Investigation – Protection and
    Release of Investigative Information,” dated June 30, 2000, provide rules, policies
    and procedures for the disclosure of personal records in the custody of DSS.
    However, DSS did not have an overarching standard operating procedure that
    detailed its personnel security investigations process from beginning to end. DSS
    officials acknowledge that the standard operating procedures manual was last
    printed in 1993. The manual describes the DSS Personnel Investigation Center
    mission, operational policies, and procedures. Officials stated that although a new
    process had been implemented and procedures for opening, monitoring, and
    closing cases had changed, the basic structure and mission had not. In addition,
    DSS provided a handbook and a manual to employees that provide direction,
    guidance, and standards for investigations and Privacy Act protection and
    disclosure. While all of those measures help, officials agreed that an updated
    standard operating procedure was needed to increase the consistency of how data
    is protected and processed. Officials are obtaining contractual support for the
    development and publication of up-to-date operating procedures. The planned
    policy revision will ensure that information requested by other organizations will
    be reviewed for approval, documented, and submitted in accordance with the
    DoD Directive and the Privacy Act. Accordingly, we did not make a
    recommendation.

Contract Administration and Oversight
    Two of the three agencies reviewed did not ensure that all contracts included the
    appropriate FAR clauses requiring contractors to adhere to the requirements of the
    Privacy Act. In addition, officials did not monitor contractors to ensure that they
    protected system of records information. The FAR requires contracting officers
    to insert Privacy Act clauses 52.224-1 and 52.224-2 in contracts that pertain to the
    collection of personally identifiable information.

    DMDC. DMDC employs contractors to help it meet its mission to collect,
    provide, and use the central repository to provide information to DoD decision
    makers, DoD organizations, and other Government agencies. According to a
    DMDC official, DMDC uses a General Services Administration supply-and-
    service contract that includes the Privacy Act clauses. The contract provides for
    services at a fixed price. DMDC places an order against the General Services
    Administration contract for the services. While we did not review the contract,
    DMDC officials stated that the contract contained the appropriate Privacy Act
    clauses. Officials at the General Services Administration stated that they do not
    verify compliance with the Privacy Act clause because it is the responsibility of
    the organization who places an order against the General Services Administration
    contract. We believe that risk of compromise of privacy data is lower because
    contractor personnel are located at DMDC, which is a secured site. In addition,
    DMDC personnel monitor and restrict the access of contractor personnel to only
    appropriate data required to perform their duties.

    AAFES. Officials stated AAFES provides SSNs to contractors to process health
    care benefits, retirement benefits, disability benefits, employment applications,
    background investigations, unemployment claims, employment verifications,
    employee assistance services, credit bureau reporting, and bad check and debt


                                         6
    collections. AAFES is a nonappropriated fund instrumentality and therefore is
    not required to follow the FAR. However, provisions of the Privacy Act should
    still be applied to a nonappropriated fund instrumentality. Of the 21 contracts at
    AAFES we reviewed, 16 included requirements for data protection. However,
    only 5 of the 16 included the Privacy Act clauses. There was no uniformity in
    language or requirements relating to the protection of personal information. In
    addition, AAFES officials stated they did not monitor contractor performance
    relating to the Privacy Act. AAFES officials agreed to use uniform Privacy Act
    statements or confidentiality provisions that the information will be used only for
    the purpose provided. Accordingly, we did not make a recommendation.

    DSS. DSS officials stated DSS has contracts with 12 firms. The firms provide
    background investigations and credit histories on DoD personnel, and maintain a
    computer operations center. Only 1 of the 12 contracts we reviewed contained the
    required Privacy Act FAR clauses. In addition, DSS did not adequately review
    and monitor how contractors used and disposed of data containing SSNs. For
    example, one contractor was improperly disposing of personnel background
    sheets that contained individuals’ SSNs and a credit bureau was using DSS data to
    update its database files. While the contract with the credit bureau did not
    prohibit an update to its files, an official from the DoD Privacy Office stated that
    the contract should have contained the confidentiality clause and this omission
    resulted in a violation of the Privacy Act. General Counsel at DSS informed us
    that the credit bureau had reviewed its database and eliminated information it
    obtained as a result of the contract with DSS. He stated that it was unnecessary
    for the credit bureau to again review their database because the update had
    occurred a long time ago and there have been no new complaints. Other reviews
    by the Office of the Inspector General, Department of Defense, focused on the
    adequacy of controls over contracting including use of the Privacy Act clauses in
    contracts and the disposal of personally identifiable information at the Defense
    Security Service.

    We provided our findings to DSS officials who agreed to take necessary action to
    remedy the deficiencies. They agreed to modify each contract to include the
    appropriate FAR clauses, conduct unannounced visits at contractor sites, and
    conduct routine data protection reviews. They also agreed to assign a contracting
    officer representative to contact each credit bureau to ensure that changes to
    individual records were not made from information that DSS supplied.
    Accordingly, we did not make a recommendation.

Privacy Act Program Review
    All three DoD agencies reviewed were not conducting periodic reviews of the
    Privacy Program. DoD Directive 5400.11 requires periodic reviews of the
    Privacy Program by the agency’s Inspector General or other officials who have
    specialized knowledge of the DoD Privacy Program.

    DMDC. Officials at DMDC stated that periodic reviews of the Privacy Program
    were not conducted because it lacked personnel to perform this duty. However,
    as a result of our visit, DMDC officials agreed to start performing reviews.
    Accordingly, we did not make a recommendation.


                                         7
     AAFES. Officials at AAFES stated that they performed periodic reviews of the
     Privacy Program until 1999. However, when Congress eliminated the reporting
     requirement on the number of access and amended requests processed, AAFES
     officials stated they ceased performing the reviews. As a result of our visit,
     AAFES officials agreed to periodically perform internal audits addressing Privacy
     Act oversight and verification of SSN use and protection. Accordingly, we did
     not make a recommendation.

     DSS. Officials at DSS stated that they performed the last review of the Privacy
     Program in 1994. By 1997, the Director and senior staff of DSS stopped the
     Inspector General inspection process and changed the Inspector General office to
     Strategic Planning. In 1999, the Inspector General office was reestablished and
     the inspection process resumed. The Office of the Inspector General for the
     Defense Security Service scheduled an inspection of the Office of Freedom of
     Information and Privacy from September 9 through September 12, 2002. The
     Privacy Act Office inspection was completed on September 20, 2002. While
     there was a long delay in the review of the program, the reestablishment of the
     Inspector General office and the September inspection are positive steps. As a
     result, we did not make a recommendation.

Physical Security of Information Systems
     One of the three DoD agencies reviewed did not secure information systems that
     contained SSNs. DoD Directive 5400.11 requires that privacy information be
     secured.

     DMDC. The DMDC mainframe computer is located off-site. At certain times
     during the week, the mainframe is in an area that is not staffed and has minimal
     physical security. Although the system of records that contains SSNs could not
     be accessed or manipulated without the use of special equipment, the area that
     housed the mainframe stored components that contained personally identifiable
     information. Officials at DMDC agreed to consult a security professional to
     perform a risk assessment of the vulnerability of the mainframe and storage
     media. Therefore, we did not make a recommendation.

     AAFES. The AAFES has safeguards to ensure the protection of sensitive
     information including Privacy Act data. The buildings have guards, and badges
     and escorts are required. The data center where the mainframes are located is
     monitored 24 hours a day, 7 days a week, with access controlled by badges and
     personnel identification numbers. Officials stated that computer safeguards
     include user identification, password protection, firewalls, and intrusion detection
     systems. Officials stated that third-party access to the AAFES intranet is limited,
     because most data is retrieved from the systems of records into data sets and then
     provided securely to outside entities.

     DSS. DSS has safeguards to ensure the protection of systems that maintain
     sensitive information, including SSNs. Access at all DSS locations is restricted to
     authorized personnel with proper identification. The buildings have guards
     posted at the entryways, who check badges. Escorts are provided, when needed.
     Additionally, the Personnel Investigation Center, where personnel security


                                          8
    investigations data are maintained, is located on a secure military base. There are
    cipher locks in the area where the computer terminals are located. All users of
    DSS information systems must obtain security clearances. Officials stated that
    computer safeguards include user identification, password protection, encrypted
    data transmission, and transportation of hard copies through approved sources. In
    addition, the computer system records user access.

Privacy Act Training
    One of the three DoD agencies reviewed did not provide employees with the
    required Privacy Act training. DoD Directive 5400.11 requires Components to
    hold training sessions on their Privacy Programs.

    DMDC. Privacy Act training is required for new employees and other staff on a
    yearly basis. Employee training lasts for 1 hour and covers the Privacy Act and
    Freedom of Information Act. New employee training addresses the mission of the
    organization, job descriptions, organization charts, the Privacy Act, and the
    Freedom of Information Act.

    AAFES. AAFES employees who work with the Treasury Offset Program are
    required to read the Treasury Offset Program pamphlet and view a video on
    protection of taxpayer information annually. This is an Internal Revenue Service
    requirement and AAFES must annually provide a Safeguard Activity Report on
    how AAFES protects taxpayer data. However, AAFES officials stated they had
    no employee training on the DoD Privacy Program, Privacy Act requirements,
    and the protection and use of SSNs. Officials at AAFES stated that they
    overlooked the requirement; however, they would produce a video for distribution
    to AAFES facilities worldwide concerning the Privacy Act and the use and
    protection of SSNs. Accordingly, we did not make a recommendation.

    DSS. DSS established a training curriculum to inform employees how to
    safeguard information covering the Freedom of Information Act and the Privacy
    Act. The DSS provides an annual security refresher briefing. The DSS Security
    Division provides the training that outlines the objectives of the Privacy Act, and
    the agencies’ responsibilities for maintaining, requesting, and disclosing Privacy
    Act information. In addition, DSS requires its contractors who conduct personnel
    security investigations to conduct and receive periodic training in handling and
    processing confidential and Privacy Act data. According to DSS, future DSS
    contracts will stress Privacy Act training and data protection.

Summary
    The Privacy Act of 1974 states the right to privacy is a personal and fundamental
    right protected by the Constitution of the United States. The Privacy Act provides
    that the privacy of an individual is directly affected by the collection,
    maintenance, use, and dissemination of personal information by Federal
    Agencies. The increasing use of computers has increased the potential for harm
    to individual privacy that can occur from any collection, maintenance, use, or
    dissemination of personal information. Agencies need to make informed


                                         9
    disclosures for legal purposes when collecting and releasing personally
    identifiable information such as SSNs. The procedures in the Privacy Program
    define the rules of the agency and the process to carry out the mission as it relates
    to the Privacy Program. The contract administration and oversight function
    allows agencies to oversee the functions of its contractors, who must follow the
    same general rules as the agency. The physical security of information protects
    the systems from misuse, and training keeps employees informed on the
    requirements of DoD Directives and the Privacy Act. All improvements will
    reduce the risk of unauthorized loss of control over personally identifiable data
    entrusted to DoD and its contractors.

Planned Actions by Management
    DMDC. The following actions were agreed to by DMDC:

               1. Revise Privacy Policy to include the process to be followed when
                  releasing personally identifiable data,

               2. Start performing reviews of the Privacy Program, and

               3. Consult a security professional to perform a risk assessment of
                  mainframe and storage media vulnerability.

    AAFES. The following actions were agreed to by AAFES:

               1. Use uniform Privacy Act statements or confidentiality provisions
                  and include those provisions in all contracts,

               2. Conduct periodic reviews of the Privacy Program, and

               3. Produce a video on the Privacy Act and use and protection of SSNs
                  and distribute the video to its facilities worldwide.

    DSS. The following actions were agreed to by DSS:

               1. Update standard operating procedures for protection and release of
                  privacy data,

               2. Modify contracts to include appropriate FAR clauses,

               3. Conduct unannounced visits to contractor sites, and

               4. Assign a representative to ensure that credit bureaus did not make
                  changes to individual credit records from data provided by DSS for
                  other purposes.




                                         10
Appendix A. Scope and Methodology
      We visited the Defense Manpower Data Center, the Army and Air Force
      Exchange Service, and the Defense Security Service. We reviewed 38 systems of
      records, 33 contracts, and 10 facilities. We reviewed the agencies’ controls over
      the use, disclosure, and access to SSN information by third parties, interviewed
      agency officials responsible for controlling SSN disclosure and access, verified
      and updated key pieces of information provided on GAO questionnaires, and
      provided examples of additional steps that the agencies can take to ensure that it
      has adequate controls over the use and protection of SSNs. We also reviewed
      four contractors and their controls over the use, disclosure, and access to SSN
      information. We did not review the controls over contracting at the Defense
      Manpower Data Center, the Army and Air Force Exchange Service, and the
      Defense Security Service. The controls over contracting at Defense Security
      Service is being reviewed under a separate audit by the Inspector General,
      Department of Defense. We also did not test the software application used to
      monitor and control access to the data files that contained personally identifiable
      information.

      We performed this audit from January 2002 through October 2002 in accordance
      with generally accepted government auditing standards. The management control
      program was not an announced objective and was not reviewed due to time
      constraints.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      General Accounting Office High-Risk Area. The General Accounting Office
      has identified several high-risk areas in DoD. This report provides coverage of
      the Information Security high-risk area.

Prior Coverage
      During the last 5 years, the GAO has issued three reports discussing SSNs.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov.

GAO
      GAO-02-766, “Greater Awareness and Use of Existing Data are Needed,”
      June 28, 2002

      GAO-02-352, “Government Benefits from SSN Use But Could Provide Better
      Safeguards,” May 31, 2002

      GAO-99-28, “Government and Commercial Use of the Social Security Number is
      Widespread,” February 16, 1999



                                          11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command Control, Communications and Intelligence)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Army and Air Force Exchange Service
Director, Defense Manpower Data Center
Director, Defense Security Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform



                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on Ways and Means on Social Security




                                       13
Department of Defense Manpower Data Center
Comments




                    14
15
Departments of the Army and Air Force
Exchange Service Comments




                    16
Defense Security Service Comments




                    17
18
19
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary L. Ugone
Bruce A. Burton
Thomas S. Bartoszek
Lisa E. Novis
Thomas J. Hilliard
Robin G. McCoy
Thelma E. Jackson
Patrice A. Cousins
Mandi L. Markwart
Constance E. Wojtek
Jennifer L. Jezewski
Jenshel D. Marshall
Jacqueline N. Pugh
